                   U. S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL




      REPORT ON AUDIT OF ACQUISITION OF SCIENTIFIC RESEARCH

                       AT AMES LABORATORY




The Office of Inspector General wants to make the distribution
of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet five to seven days after
publication at the following alternative addresses:


            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

  U.S. Department of Energy Human Resources and Administration
                            Home Page
               http://ww.hr.doe.gov/refshelf.htm1


Your comments would be appreciated and can be provided on the
Customer Response Form attached to the report.

              This report can be obtained from the
                    U.S. Department of Energy
         Office of Scientific and Technical Information
                           P.O. Box 62
                   Oak Ridge, Tennessee 37831




Report Number: ER-B-95-05          Eastern Regional Audit Office
Date of Issue: July 14, 1995       Oak Ridge, TN
      REPORT ON AUDIT OF ACQUISITION OF SCIENTIFIC RESEARCH
                       AT AMES LABORATORY


                        TABLE OF CONTENTS
                                                             Page

           SUMMARY........................................     1

PART I   D APPROACH AND OVERVIEW..........................     2

           Introduction...................................     2

           Scope and Methodology..........................     2

           Background.....................................     2

           Observations and Conclusions...................     3

PART II D FINDING AND RECOMMENDATION......................     5

PART III- MANAGEMENT AND AUDITOR COMMENTS.................    11
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES


                               #=1
      REPORT ON AUDIT OF ACQUISITION OF SCIENTIFIC RESEARCH
                       AT AMES LABORATORY


Audit Report Number:   ER-B-95-05                    July 14, 1995

                              SUMMARY

     The Department awards grants and cooperative agreements
(cooperative agreements) and contracts to sponsor scientific
research at colleges and universities. Compared to cooperative
agreements, contracts, particularly management and operating
contracts, often impose duplicative and/or unnecessary
administrative and compliance burdens on a college or
university. Since the Department bears the cost of those
additional burdens, we audited the cost effectiveness of the
Department's sponsorship of research at Ames Laboratory under a
management and operating contract with Iowa State University.

     The research conducted at Ames is of the type that
Congress intended to be sponsored by assistance agreements,
rather than contracts. Moreover, we found the contract for
managing and operating Ames Laboratory caused micromanagement
and unnecessary costs, most of which could have been avoided
with a cooperative agreement. However, after completion of our
field work, the Department announced initiatives to reduce or
eliminate some compliance and oversight burdens associated with
management and operating contracts, but did not opt to sponsor
research under cooperative agreements. We are unable to
determine the monetary impact because the initiatives have not
been implemented. Nevertheless, we continue to believe that
cooperative agreements, having fewer unique bureaucratic
requirements, offer the potential for reducing administrative
overhead.

     Management concurred with the intent of our recommendation
to find lower cost contractual alternatives for the operation of
Ames Laboratory. The Chicago Operations has begun to determine
the impact of alternative contractual vehicles. Part III of
this report discusses management's comments.



                                       Office of Inspector General

                              PART I

                       APPROACH AND OVERVIEW
INTRODUCTION

     The Department of Energy has sponsored scientific research
at Ames Laboratory since 1947 under a series of contracts. The
most recent contract was awarded in 1989. The audit objective
was to determine whether the sponsorship of research at Ames
Laboratory under a management and operating contract with Iowa
State University (Iowa State) was cost effective when compared
to cooperative agreements.


SCOPE AND METHODOLOGY

      The audit was performed in December 1994 at Ames
Laboratory, which is located on the Iowa State campus in Ames,
Iowa. Ames Laboratory is operated by Iowa State under a
management and operating contract awarded by the Chicago
Operations Office. The following specific methodologies were
used:

     o   Examined applicable Departmental orders and directives;

     o   Reviewed pertinent provisions in the Department's
         management and operating contract with Iowa State for
         the operation of Ames Laboratory;

     o   Interviewed Departmental, Iowa State and Ames Laboratory
         managers and scientists to gain an understanding of
         organizational relationships, staffing, administrative
         requirements, oversight responsibilities and the
         approach to the conduct of scientific research under
         contracts, grants, and cooperative agreements; and

     o   Discussed the nature of the sponsored research at Ames
         Laboratory with Chicago Operations Office, as well as
         Headquarters Energy Research and Waste Management
         officials to the extent necessary to facilitate
         comparison of contract and financial assistance
         requirements.



     The audit was made according to generally accepted
Government auditing standards for performance audits and
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit.

     Management waived the official exit conference on this
audit.


BACKGROUND

     Ames Laboratory is a Government-owned research facility
collocated with Iowa State. Established in 1947 as a result of
the Manhattan Project, Ames Laboratory performs basic research
in materials and chemical sciences and related research in
materials reliability and nondestructive evaluation. Ames
Laboratory employs 342 people, and has an annual operating
budget of about $40 million. Ames Laboratory maintains a
separate administrative support organization which includes
accounting, budgeting, and purchasing departments. The current
management and operating contract between Iowa State and the
Chicago Operations Office expires in December 1996.

     Although legally distinct entities, Ames Laboratory and
Iowa State closely collaborate in research activities through
faculty appointments, graduate student training, faculty sharing
programs, and undergraduate and faculty summer research
programs, etc. Ames Laboratory maintains capabilities for
preparing high purity metals, alloys, compounds and single
crystals. It also sustains additional capabilities in high
energy physics, nuclear physics, applied mathematics and
engineering, and environmental and coal preparation sciences.


OBSERVATIONS AND CONCLUSIONS

     We believe Congress intended that the type research being
performed at Ames Laboratory be sponsored under a financial
assistance instrument rather than under a management and
operating contract. Moreover, the present contract for the
management and operation of Ames Laboratory caused unnecessary
and/or duplicative administrative support and oversight
activities. For example, under the management and operating
contract, Ames Laboratory maintained an administrative
organization (accounting, budgeting, personnel, etc.)
duplicative of Iowa State's. Further, contract terms required
Ames Laboratory to implement several Department management
systems (such as a specialized accounting system) and caused
Ames Laboratory employees to annually spend about 3,000 hours
preparing recurring compliance reports for the Department.
Also, by using the management and operating contract, the
Department increased Federal administrative involvement by:
(1) 140 staff days annually to review and appraise Ames
Laboratory's operating systems, and (2) two Chicago Operations
Office employees who were assigned to contract administration.

     Recent changes in the Department's procurement philosophy
for laboratories are expected to reduce the number of compliance
requirements and limit Federal administrative involvement.
However, implementing these changes would probably not
significantly change the contractor's organizational structure.
Using a cooperative agreement in lieu of the existing management
and operating contract would eliminate administrative
duplication with Iowa State, reduce DOE mandated systems at Ames
Laboratory, and minimize Federal employee administrative
involvement.

                               PART II
                      FINDING AND RECOMMENDATION

         Sponsorship of Scientific Research at Ames Laboratory


FINDING

     The Federal Grant and Cooperative Agreement Act requires
that public purpose research be acquired by grants or
cooperative agreements. Cooperative agreements, as opposed to
management and operating contracts, offer significant cost
advantages because such agreements generally avoid duplicating
support functions and impose fewer administrative requirements
at both the laboratory and the Federal level. However, the
Department has sponsored research at Ames Laboratory under a
management and operating contract which resulted in:

     o     Duplicative administrative support, such as a separate
           purchasing department;

     o     Unnecessary activities, such as a Department-mandated
           accounting system; and

     o     Substantial Federal employee administrative involvement.

     The Department has sponsored research at Ames Laboratory
since 1947, but has not fully considered the advantages of
acquiring research under one or more cooperative agreements.
Consequently, the Department has spent substantial funds for
administrative support and oversight that otherwise could have
been directed to actual research, or avoided altogether.


RECOMMENDATION

We recommend that the Manager, Chicago Operations Office,
sponsor scientific research under cooperative agreements with
Iowa State instead of a management and operating contract.

MANAGEMENT REACTION

     The Chicago Operations Office expressed agreement with the
intent of our recommendation and has initiated a study of
contractual alternatives, including a cooperative agreement and
a reformed management and operating contract.


                          DETAILS OF FINDING


MORE DOLLARS FOR RESEARCH USING COOPERATIVE AGREEMENTS

     The Federal Grant and Cooperative Agreement Act of 1977
provides that an agency must use a procurement contract if its
principal purpose is to acquire property or services for the
direct benefit or use of the Federal Government. Conversely, an
agency must use an assistance agreement (e.g., cooperative
agreement) to transfer money, property, services or anything of
value to a recipient to accomplish a public purpose.
Cooperative agreements also offer several cost advantages to the
Department because such agreements cause less duplication of
administrative functions, have significantly fewer specialized
requirements, and lessen Federal administrative oversight.
Thus, compared to management and operating contracts,
cooperative agreements consume fewer dollars in administrative
overhead thereby making more funds available for actual
research.

Public Purpose Research

     Notwithstanding the intent of the Federal Grant and
Cooperative Agreement Act, the Department has sponsored "public
purpose" research at Ames Laboratory under a management and
operating contract rather than a cooperative agreement.
Moreover, the Department's historical use of a management and
operating contract caused diseconomies, including duplication of
administrative functions and unnecessary compliance activities.

     The public purpose of research performed at Ames Laboratory
is expressed in their Institutional Plan. While mentioning
Departmental goals, the plan also specifies the achievement of
"other national goals and to increase the general levels of
knowledge and technical capabilities." The plan states that
Ames Laboratory "will make the results of its research programs
and the consequent technological developments available to the
broadest possible spectrum of domestic industrial and private
sector recipients through a variety of technology transfer
mechanisms and external interactions." Technology is
transferred through technical publications, presentations,
consulting activities of staff members, and cooperative projects
with industry and government.

     The public purpose of Ames Laboratory's research is also
evident by the Laboratory's collaborative relationship with
industry. Laboratory-industry research is being conducted in
the areas of new ceramic materials synthesis, development of
ductile height temperature superconducting fibers, theoretical
and modeling studies of automotive exhaust conversion devices,
and the development of advanced thermoelectric material. Ames
Laboratory's industrial "partners" include such notables as
General Motors Corporation and Dow-Corning Corporation.

Duplication of Functions

     Many of the functions required by the management and
operating contract are duplicative of existing Iowa State
functions. There are 53 employees in Ames Laboratory's
administrative and oversight functions who are performing duties
comparable to those performed by Iowa State, as shown below.

         ZDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDD?
         3                  Table 1                   3
         3                                            3
         3 Duplicated Functions at Ames Laboratory    3
         3                                            3
         3         Function            Staffing       3
         3                                            3
         3      Purchasing                17          3
         3      Accounting                11          3
         3      Budgeting                  8          3
         3      Data Processing            8          3
         3      Personnel                  5          3
         3      Auditing                   2          3
         3      Travel                     2          3
         3                                            3
         3      Total                     53          3
         3                                MM          3
         3                                            3
         @DDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDY

       Cooperative agreements, such as those awarded by other
Federal agencies to Iowa State, do not necessitate a separate
administrative support structure but rely instead on the
existing administrative network. Thus, we believe that much of
Ames Laboratory's administrative support is duplicative and
could be avoided if the Department sponsored research under
cooperative agreements instead of a management and operating
contract.

     Compliance Activities

     Several activities required by the management and operating
contract could be reduced or avoided altogether under a
cooperative agreement. At the time of our field work,
management and operating contractors were subject to over 180
Department of Energy orders, as well as the Department of Energy
Acquisition Regulation. Although the Department has initiatives
to reduce or eliminate orders, many continue to dictate
specialized systems for accounting, procurement, property,
internal audit, etc. At Ames Laboratory, compliance with the
contract and current Departmental orders annually required over
3,000 staff hours, conservatively valued at about $65,000, for
preparing recurring reports, as shown below.

     ZDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDD?
     3                                                     3
     3                     Table 2                         3
     3                                                     3
     3 Annual Staff Hours Estimated for Recurring Reports 3
     3                                                     3
     3                                      Estimated      3
     3            Activity                Staff Hours      3
     3                                                     3
     3     Budgeting                          1,130        3
     3     Data Processing                      380        3
     3     Facilities                           358        3
     3     Environment, Safety & Health         343        3
     3     Computer Security                    321        3
     3     Accounting                           198        3
     3     Personnel                            144        3
     3     Purchasing & Property Management      83        3
     3     Auditing                             80         3
     3                                                     3
     3     Total                             3,037         3
     3                                       MMMMM         3
     3                                                     3
     @DDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDY

     In contrast to the 180 orders required by contracts,
cooperative agreements contain significantly fewer requirements,
less compliance effort, and minimal oversight. The Department's
20 financial assistance agreements with Iowa State are subject
to approximately 40 orders and also are not subject to the
Department of Energy Acquisition Regulation. Two examples
illustrate the reduced level of compliance:

     o   The Department's management and operating contract
         requires a separate accounting system which is unique to
         the Department's contractors. Under cooperative
         agreements, however, the accounting requirements would
         be identical to those employed for similar instruments
         of other agencies -- one set of books at Iowa State for
         all Federally sponsored research.

     o   Ames Laboratory maintains its own internal audit group
         to satisfy contractual requirements for auditing.
         However, all research sponsored by cooperative
         agreements would be subject to a single audit wherein
         all cooperative agreements are audited annually by a
         public accounting firm or State agency.

     Additional Departmental Oversight

     Departmental management of contractor performance was more
extensive than for financial assistance recipients. The
Department spent about 140 days annually appraising Ames
Laboratory's accounting, budgeting, property and other systems.
Also, there were two individuals in the Chicago Operations
Office who spent most of their time monitoring Ames Laboratory.
We estimate the annual cost of this oversight effort at
approximately $195,000. Comparatively, the Department's
oversight of cooperative agreements is typically limited to one
or two meetings each year to discuss work progress.


CONSIDERATION OF COOPERATIVE AGREEMENT OPTION

     The Department has not fully explored the advantages of
sponsoring research at Ames Laboratory under a cooperative
agreement. Ames Laboratory has traditionally been operated
under a contract since its establishment in 1947 without
adequate consideration of alternatives. The Department is
currently implementing management and operating contract reforms
nationwide. However, the option of acquiring scientific
research at Ames Laboratory under cooperative agreements has not
been fully considered.
COSTS COULD BE AVOIDED

     The Department has acknowledged that certain costs
associated with a management and operating contract pertaining
to complying with directives have been incurred. Currently, the
Department is eliminating, consolidating and streamlining
directives for management and operating contractors and the
outcome is projected to produce savings or cost avoidances in
contractor and Federal compliance and oversight activities. At
present, the effort is underway with no accurate measurement of
these savings. While these initiatives are laudable, they do
not appear to address a fundamental issue of using the most
appropriate and cost-effective method of acquiring research at
laboratories.
     We are unable to precisely quantify the overall cost
savings or avoidance by acquiring scientific research at Ames
Laboratory with cooperative agreements versus a management and
operating contract. However, we do believe realization of
substantial cost benefits is achievable. One such example would
be the elimination of Federal oversight estimated at
approximately $195,000 annually. The savings could better be
used to conduct additional research at Ames Laboratory, other
research institutions, or could be avoided altogether.


                            PART III

                 Management and Auditor Comments


     The Manager, Chicago Operations Office, commented on the
revised initial draft version of this report and concurred, in
principle, with the recommendation for acquiring scientific
research at Ames Laboratory at a lower cost. Management and
auditor comments follow.

     Management Comments. We agree with the principle of
finding lower cost contractual alternatives for our Ames
operation. We are committed to achieving cost effective
operations while maintaining the scientific excellence of the
Ames Laboratory. Consequently, we have initiated a study to
determine the cost impact of alternative contractual vehicles,
including both a cooperative agreement and a reformed M&O
contract.

     As part of our study, several of our staff members met with
both Ames Laboratory and Iowa State University (ISU)
representatives in order to obtain financial data. Although we
received some of the data we requested, both Ames Laboratory and
ISU need additional time to analyze and submit the requested
data. Upon receipt and analysis of this data, we will discuss
our conclusions with our Energy Research and Environmental
Management customers. Subsequent to this we will prepare a
report that contains our final conclusions. We expect to
complete this study and to prepare a coordinated cost reduction
plan based on the findings by September 1, 1995. We will send
you a copy of this report.
     Auditor Comments. The corrective actions taken and
planned are responsive to the intent of the recommendation. We
will, however, continue to monitor the study's progress and plan
to review management's report on their final conclusions.

                                           IG Report No.   ER-B-95-05


                         CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us.
On the back of this form, you may suggest improvements to enhance
the effectiveness of future reports. Please include answers to
the following questions if they are applicable to you:

     1.   What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection
would have been helpful to the reader in understanding this
report?

     2.   What additional information related to findings and
recommendations could have been included in this report to
assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have
made this report's overall message more clear to the reader?

     4.   What additional actions could the Office of Inspector General
have taken on the issues discussed in this report which would
have been helpful?

     Please include your name and telephone number so that we may
contact you should we have any questions about your comments.

     Name                               Date

     Telephone                          Organization

     When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586D0948, or you may mail it
to:

                    Office of Inspector General (IG-1)
                    Department of Energy
                    Washington, D.C. 20585
                    ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff
member of the Office of Inspector General, please contact
Wilma Slaughter (202) 586D1924.
